<html>
<title> - ORGANIZATIONAL MEETING</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         ORGANIZATIONAL MEETING

=======================================================================

                                MEETING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, JANUARY 27, 2009

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                   U.S. GOVERNMENT PRINTING OFFICE
50-203 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              DANIEL E. LUNGREN, California
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama

                           Professional Staff

                 S. Elizabeth Birnbaum, Staff Director
               Victor Arnold-Bik, Minority Staff Director


                         ORGANIZATIONAL MEETING

                              ----------                              


                       TUESDAY, JANUARY 27, 2009

                  House of Representatives,
                         Committee on House Administration,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 1:30 p.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) presiding.
    Present: Representatives Brady, Lofgren, Capuano, Gonzalez, 
Davis of California, Davis of Alabama, Lungren, and Harper.
    Staff Present: Liz Birnbaum, Staff Director; Jamie Fleet, 
Deputy Staff Director; Charles Howell, Chief Counsel; Matt 
Pinkus, Professional Staff/Parliamentarian; Kyle Anderson, 
Press Director; Kristin McCowan, Chief Legislative Clerk; 
Gregory Abbott, Policy Analyst; Victor Arnold-Bik, Minority 
Staff Director; Peter Schalestock, Minority Counsel; and Bryan 
T. Dorsey, Minority Professional Staff.
    The Chairman. I would like to call to order the Committee 
on House Administration for its organizational meeting for the 
111th Congress. A quorum of members is present, so we may 
proceed.
    At this first meeting of the committee in the new Congress, 
I would like to welcome back everyone on our side, who are all 
back, and I hope that we can all work together as we did in the 
last Congress. There are no changes on our side, but we have a 
new member on the Republican side.
    We will miss Mr. Ehlers as our ranking member. No 
disrespect to the new ranking member. He was an absolute 
positive gentleman, somebody whom I really, really enjoyed and 
somebody whom I got to know and whom I got to be extremely fond 
of. We did not always agree. We are not supposed to always 
agree. But we were never disagreeable. And he was a classy guy, 
an absolutely classy guy to work with. And we are not missing 
him in any bad way. He is still a Member of Congress, and we 
still will see him. And I will continue my great relationship I 
have with him.
    But we do have a new ranking member in Mr. Lungren, and I 
would like to welcome him as a new ranking member. We had a 
conversation. We agree on everything so far. Hopefully we will 
continue that, and I would ask him also if he would introduce 
his new member and for any remarks that you would like to make.
    Mr. Lungren. Thank you very much, Mr. Chairman. And thank 
you for your indulgence.
    The Republican Conference had an honor this afternoon. We 
met with the President of the United States, and he stayed an 
extra 25 minutes to answer questions saying that the Senate 
could wait, which we all applauded wildly at. And I was seated 
towards the front, and the only way I could have left was to 
get up and walk in front of the President as if I was walking 
out. And I hope you will understand why I did not do that.
    So, again, I do apologize for our tardiness, but that was 
the reason.
    I would like to introduce and welcome our new member, 
Congressman Greg Harper, who was elected this past November to 
represent Mississippi's Third District, where he has spent in 
the past considerable time on election law issues.
    In 2001, he served as the Republican representative on the 
Mississippi Secretary of State's Election Task Force, and I 
believe that his expertise will help us on this committee.
    We do have Kevin McCarthy returning, and he will, again, be 
on our Subcommittee on Elections.
    And I thank the Chairman for his welcome, and I thank him 
for the spirit of bipartisanship that he has shown me over the 
last couple of years, in particular the last couple of months 
and especially the last couple of weeks when I have had this 
ranking member. We have had already, I think, enjoyable 
discussions, and we have had some additions on our committee 
staff, and we welcome the outreach from your staff as well.
    And we know there will be some issues upon which we may 
disagree, and there may be some strong partisan differences. 
But I would say at least 75 percent of the work in this 
committee is bipartisan. There ought not to be any 
misunderstanding of that.
    It is my hope--and you and I have discussed this--that we 
can work to make this an even more Member-friendly committee. 
And by that I mean not that we go outside the rules, but we try 
and delineate as clearly as possible what the rules are, and we 
make it clear to our membership, our fellow Members, what those 
rules are. And it is my hope that we can say yes far more than 
we can say no, so that Members may be able to work in very 
effective ways to do the job that they were sent here to do and 
to communicate with their constituents.
    And I know you share that. And so I very much appreciate 
that.
    As you know, one of my passions is security, and I look 
forward to working with the members on the other side of the 
aisle on making this, while it is a welcoming place, also an 
even more secure place because this institution is so important 
to our Nation, and we have every need to ensure that this is 
the case.
    And finally, I know by our rules, by the recently passed 
House Rules amendment requiring committees to conduct regular 
hearings on waste, fraud management, and abuse, that we need to 
do that as well. And I believe under our organization we can do 
that, and I will work with the chairman to ensure that we 
continue to do that.
    And I thank you for your indulgence, and I thank you for 
your spirit of bipartisanship.
    Mr. Chairman. Thank you.
    Anybody have anything to say on our side?
    For the record, if you don't mind, we were wondering if the 
President changed your mind on anything.
    Mr. Lungren. No, no. But we did sincerely tell him that 
every day he will receive prayers from our individual Members 
for his success and the success of our Nation.
    Mr. Chairman. Prayers and votes, I guess, are a little bit 
different.
    I need to make a few announcements.
    Pursuant to House Rules, I am appointing our distinguished 
colleague, the gentlewoman from California, Ms. Zoe Lofgren, as 
the Vice Chair of the Committee on House Administration in the 
111th Congress.
    Also, as we announced at the last meeting of the committee 
in the 110th Congress, we took two actions by poll of the 
committee members. First, we adopted a new rule allowing 
Members to post video clips on Web sites outside the House Web 
address. Second, we agreed to recommendations from the Florida 
13th Task Force to pay certain attorney's fees for our 
colleague, Mr. Buchanan. These fees were incurred in the 
successful defense of an election contest during the last 
Congress.
    And our first item of business, I would like to because 
of--not that we want to get out of our committee hearing, 
because everything is pushed back, there are other committees 
that are having markups that are extremely important. So I 
would ask, without any objections, that we could take our four 
issues en bloc. They would be Resolutions 111-1; 111-2; 111-3; 
and 111-4.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0203A.001
    
    [GRAPHIC] [TIFF OMITTED] T0203A.002
    
    [GRAPHIC] [TIFF OMITTED] T0203A.003
    
    [GRAPHIC] [TIFF OMITTED] T0203A.004
    
    [GRAPHIC] [TIFF OMITTED] T0203A.005
    
    [GRAPHIC] [TIFF OMITTED] T0203A.006
    
    [GRAPHIC] [TIFF OMITTED] T0203A.007
    
    [GRAPHIC] [TIFF OMITTED] T0203A.008
    
    [GRAPHIC] [TIFF OMITTED] T0203A.009
    
    [GRAPHIC] [TIFF OMITTED] T0203A.010
    
    [GRAPHIC] [TIFF OMITTED] T0203A.011
    
    [GRAPHIC] [TIFF OMITTED] T0203A.012
    
    [GRAPHIC] [TIFF OMITTED] T0203A.013
    
    [GRAPHIC] [TIFF OMITTED] T0203A.014
    
    [GRAPHIC] [TIFF OMITTED] T0203A.015
    
    [GRAPHIC] [TIFF OMITTED] T0203A.016
    
    [GRAPHIC] [TIFF OMITTED] T0203A.017
    
    [GRAPHIC] [TIFF OMITTED] T0203A.018
    
    [GRAPHIC] [TIFF OMITTED] T0203A.019
    
    [GRAPHIC] [TIFF OMITTED] T0203A.020
    
    [GRAPHIC] [TIFF OMITTED] T0203A.021
    
    [GRAPHIC] [TIFF OMITTED] T0203A.022
    
    [GRAPHIC] [TIFF OMITTED] T0203A.023
    
    [GRAPHIC] [TIFF OMITTED] T0203A.024
    
    The Chairman. I do need to make another announcement. I 
would like to now appoint the gentleman from Texas, 
Representative Gonzalez, to be Vice Chair of the Subcommittee 
on Elections in the 111th Congress.
    Hearing no objections to taking the four pieces of business 
en bloc as one, are there any amendments for these four?
    Will the ranking member have anything to add to anything 
that we are doing with these four?
    Mr. Lungren. I thank the chairman for agreeing to some of 
the suggestions that we made and believe that we have no 
further amendments.
    The Chairman. I would then like to ask for all of those in 
favor to signify by saying aye.
    Any opposed? None.
    So ordered.
    Our four amendments, our housekeeping amendments, for the 
new 111th Congress of the Committee on House Administration 
have been approved.
    Anybody have anything to say in the majority? Anybody have 
anything to say in the minority?
    We welcome you, sir.
    We hope that you enjoy yourself.
    As my dear friend Mr. Lungren said, we are a Members' 
committee, and outside of getting any Member in trouble in any 
way, shape, or form, whether it be non-election or anything 
worse than that, we would like to try to help them, and I will 
continue to do that.
    Thank you all. This meeting is adjourned.
    [Whereupon, at 1:38 p.m., the committee was adjourned.]

</pre></body></html>
